No. 21-328
In the Supreme Court of the United
__________________

States

ROBYN MORGAN, on Behalf of Herself and All
Similarly Situated Individuals,
Petitioner,
v.
SUNDANCE, INC.,
__________________

Respondent.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Eighth Circuit

__________________

BRIEF IN OPPOSITION
__________________
JOEL W. RICE
SCOTT C. FANNING
FISHER & PHILLIPS LLP
10 South Wacker Drive
Suite 3450
Chicago, IL 60606

REYBURN W. LOMINACK, III
Counsel of Record
FISHER & PHILLIPS LLP
1320 Main Street
Suite 750
Columbia, SC 29201
(803) 740.7658
rlominack@fisherphillips.com

Counsel for Respondent

October 1, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether the Eighth Circuit panel majority
correctly concluded, on the totality of the
circumstances, that Sundance did not waive its
right to compel arbitration where the initial
scheduling conference had yet to take place, no
discovery had been initiated by either side, no
merits-based motion had been filed, and Petitioner’s
participation in private mediation with the
overlapping Wood Action was wholly voluntary.
2. Whether, by conceding in the lower courts that
waiver of arbitration requires the party opposing
arbitration to show prejudice and indeed arguing in
favor of prejudice, Petitioner failed to preserve her
claim that the Eighth Circuit erred in considering
prejudice in determining whether a litigant has
waived its right to compel arbitration.

ii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of the Rules of the Supreme
Court of the United States, Respondent makes the
following disclosure:
Sundance, Inc. does not have a parent corporation and
no publicly-held corporation owns 10% or more of its
stock.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iv
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
A. Trial Court Proceedings. . . . . . . . . . . . . . . 2
B. Proceedings on Appeal . . . . . . . . . . . . . . . . 5
REASONS FOR DENYING THE WRIT . . . . . . . . . . 8
I.

Petitioner Has Waived Any Argument That
Prejudice Should Not Be A Required Element
Of The Standard For Waiver Of Arbitration . . . 9

II.

The Decision Below And The Decisions Of
Other Circuit Courts Do Not Present A
Conflict That This Court Must Resolve . . . . 10
A. This Case Is Not A Proper Vehicle To
Address Whether Prejudice Should Be A
Mandatory Component Of The Test For
Waiver Of Arbitration . . . . . . . . . . . . . . . 10
B. The Purported Conflicts Among The
Circuit Courts Are Illusory And Do Not
Require Resolution By This Court . . . . . 12

III.

The Decision Below Does Not Raise Any
Important Federal Question Requiring
Resolution By This Court . . . . . . . . . . . . . . . 15

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

iv
TABLE OF AUTHORITIES
CASES
Al Rushaid v. Nat’l Oilwell Varco, Inc.,
757 F.3d 416 (5th Cir. 2014). . . . . . . . . . . . . . . . 12
Art Shy v. Navistar Int’l Corp.,
781 F.3d 820 (6th Cir. 2015). . . . . . . . . . . . . . . . 12
Burton v. Bush,
614 F.2d 389 (4th Cir.1980) . . . . . . . . . . . . . . . . 17
Cabinetree of Wisconsin, Inc. v. Kraftmaid
Cabinetry, Inc., 50 F.3d 388 (7th Cir. 1995) . . . 13
Cooper v. Asset Acceptance, LLC,
532 Fed.Appx. 639 (7th Cir. 2013) . . . . . . . . . . . 12
Cotton v. Slone,
4 F.3d 176 (2d Cir. 1993) . . . . . . . . . . . . . . . . . . 16
Cutter v. Wilkinson,
544 U.S. 709 (2005). . . . . . . . . . . . . . . . . . . . . . . 10
E.C. Ernst, Inc. v. Manhattan Const. Co.,
559 F.2d 268 (5th Cir. 1977). . . . . . . . . . . . . . . . 15
FPE Found. v. Cohen,
801 F.3d 25 (1st Cir. 2015) . . . . . . . . . . . . . . . . . 12
Fisher v. A.G. Becker Paribas Inc.,
791 F.2d 691 (9th Cir. 1986). . . . . . . . . . . . . . . . 18
Gavlik Constr. Co. v. H.F. Campbell Co.,
526 F.2d 777 (3d Cir. 1975) . . . . . . . . . . . . . . . . 18

v
Gen. Star Nat’l Ins. Co. v. Administratia
Asigurarilor de Stat,
289 F.3d 434 (6th Cir. 2002). . . . . . . . . . . . . . . . 18
Gray Holdco, Inc. v. Cassady,
654 F.3d 444 (3d Cir. 2011) . . . . . . . . . . . . . . . . 14
Grigsby & Assoc’s, Inc. v. M Securities Inv.,
635 Fed.Appx. 728 (11th Cir. 2015) . . . . . . . 12, 13
Hill v. Ricoh Americas Corp.,
603 F.3d 766 (10th Cir. 2010). . . . . . . . . . . . 16, 17
Hudson v. Citibank (S.D.) NA,
387 P.3d 42 (Alaska 2016) . . . . . . . . . . . . . . . . . 13
Illinois v. Gates,
462 U.S. 213 (1983). . . . . . . . . . . . . . . . . . . . . . . 10
In re Cox Enterprises, Inc.,
790 F.3d 1112 (10th Cir. 2015). . . . . . . . . . . . . . 12
In re Crysen/Montenay Energy Co.,
226 F.3d 160 (2d Cir. 2000) . . . . . . . . . . . . . . . . 18
In re Pharmacy Ben. Managers Antitrust Litig.,
700 F.3d 109 (3d Cir. 2012) . . . . . . . . . . . . . . . . 12
Kelly v. Golden,
352 F.3d 344 (8th Cir. 2003). . . . . . . . . . . . . . . . 12
Khan v. Parsons Glob. Servs., Ltd.,
521 F.3d 421 (D.C. Cir. 2008). . . . . . . . . . . . 13, 17
Lamps Plus v. Varela,
139 S. Ct. 1407, 203 L. Ed. 2d 636 (2019) . . . . . . 3

vi
Lewallen v. Green Tree Servicing, LLC,
487 F.3d 1085 (8th Cir. 2007). . . . . . . . . . . . . . 4, 6
Maxum Founds., Inc. v. Salus Corp.,
779 F.2d 974 (4th Cir. 1985). . . . . . . . . . . . . . . . 18
Miller Brewing Co. v. Fort Worth Distrib. Co.,
781 F.2d 494 (5th Cir. 1986). . . . . . . . . . . . . . . . 18
Morgenthau Venture Partners, LLC v. Kimmel,
254 So. 3d 958 (Fla. Dist. Ct. App. 2018),
cert. denied 139 S. Ct. 2693 (2019) . . . . . . . . . . . 19
Moses H. Cone Mem’l Hosp. v. Mercury Constr.
Corp., 460 U.S. 1 (1983) . . . . . . . . . . . . . . . . . . . 12
Nat’l Found. for Cancer Rsch. v. A.G. Edwards &
Sons, Inc.,
821 F.2d 772 (D.C. Cir. 1987). . . . . . . . . 13, 15, 18
Nino v. Jewelry Exch., Inc.,
609 F.3d 191 (3d Cir. 2010) . . . . . . . . . . . . . . . . 16
OBB Personenverkehr AG v. Sachs,
577 U.S. 27 (2015). . . . . . . . . . . . . . . . . . . . . . . . 10
Pennsylvania Dep’t of Corr. v. Yeskey,
524 U.S. 206 (1998). . . . . . . . . . . . . . . . . . . . . . . . 9
Peterson v. Shearson/American Exp., Inc.,
849 F.2d 464 (10th Cir. 1988). . . . . . . . . . . . 13, 18
PPG Indus., Inc. v. Webster Auto Parts, Inc.,
128 F.3d 103 (2d Cir. 1997) . . . . . . . . . . . . . . . . 18
Price v. Drexel Burnham Lambert, Inc.,
791 F.2d 1156 (5th Cir. 1986). . . . . . . . . . . . . . . 15

vii
S & H Contractors, Inc. v. A.J. Taft Coal Co.,
906 F.2d 1507 (11th Cir. 1990). . . . . . . . . . . 13, 18
Samson v. NAMA Holdings, LLC,
637 F.3d 915 (9th Cir. 2010). . . . . . . . . . . . . . . . 12
Sevinor v. Merrill Lynch, Pierce, Fenner & Smith,
807 F.2d 16 (1st Cir. 1986) . . . . . . . . . . . . . . . . . 18
St. Mary’s Med. Ctr. of Evansville, Inc. v.
Disco Aluminum Prod. Co.,
969 F.2d 585 (7th Cir. 1992). . . . . . . 13, 16, 17,18
Stifel, Nicolaus & Co., Inc. v. Freeman,
924 F.2d 157 (8th Cir. 1991). . . . . . . . . . . . . . . . 17
Technology in Partnership, Inc. v. Rudin,
538 Fed.App’x. 38 (2d Cir. 2013) . . . . . . . . . . . . 12
Wheeling Hosp., Inc. v. Health Plan of the Upper
Ohio Valley, Inc.,
683 F.3d 577 (4th Cir. 2012). . . . . . . . . . . . . . . . 12
RULES
Fed. R. Civ. P. 12(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . 2

1
Respondent, Sundance, Inc. (“Sundance” or
“Respondent”), respectfully prays that this Court enter
an order denying the Petition for Writ of Certiorari to
the United States Court of Appeals for the Eighth
Circuit filed by Petitioner, Robyn Morgan (“Morgan”).
STATEMENT OF THE CASE
Morgan, a former Sundance employee, signed an
agreement at the start of her employment that, among
other things, compelled the arbitration of her federal
wage and hour claims in this case. Despite this
agreement, on September 25, 2018, Morgan filed a
putative nationwide collective action alleging that
Sundance engaged in a common plan to violate the
overtime provisions of the FLSA, by failing to pay
herself and all similarly situated employees for all
hours they worked and/or by failing to pay employees
the required overtime rate for all hours worked over
forty in a week. 8th Cir. App. 7-13, ¶¶ 1-2.1
Morgan’s Complaint was a near verbatim copy of a
collective action Complaint filed nearly two years
earlier in the Eastern District of Michigan, Wood v.
Sundance, Inc., Case No. 2:16-cv-13598-GCS-RSW (the
“Wood Action”) (8th Cir. App. 7-13, 33-48). By the time
Morgan filed her lawsuit, substantial discovery had
been conducted in the Wood Action, an agreed
conditional class had been certified, and the Wood
Action was still being actively litigated. See Stip.
Order Cond. Cert., Dkt. No. 23, Wood v. Sundance, Inc.,
No. 2:16-cv-13598 (E.D. Mich. June 21, 2017).
1

Sundance strenuously denies Morgan’s allegations of off-the-clock
work or failure to pay overtime, which have not been litigated in
the courts below.

2
A. Trial Court Proceedings
On November 8, 2018, in lieu of a response to the
merits of Morgan’s lawsuit, Sundance sought to stay
consideration of this case, pursuant to Fed. R. Civ. P.
12(b)(3), in light of the long-pending Wood Action that
involved substantially overlapping issues and parties.
8th Cir. App. 14-30. Sundance’s request for a stay was
premised on the first-filed rule and argued that the
district court should stay and/or dismiss Morgan’s
Complaint without prejudice because it substantially
overlapped the Wood Action already being actively
litigated. 8th Cir. App. 30-48. Nearly four months later,
on March 5, 2019, during which intervening period no
activity took place in this case, the district court denied
Sundance’s request for a stay of this litigation. 8th Cir.
App. 182-88.
On April 15, 2019—only approximately a month
after the district court’s denial of a stay – the parties to
this case, as well as the plaintiffs in the pre-existing
Wood Action, voluntarily participated in a joint private
mediation of the two cases. 8th Cir. App. 248.2
Mediation of the Wood Action had been contemplated
for some time. Given the similarity of the issues and
2

In the Petition, Morgan continues to falsely assert that Sundance
produced thousands of e-mails to Morgan in connection with the
mediation. Pet., p. 7. This is not true. The “thousands of emails”
Morgan references were, in fact, produced in discovery in the Wood
Action, not this lawsuit – a fact raised throughout Sundance’s
briefing and never rebutted by Morgan. 8th Cir. App. 238, 214.
Furthermore, in connection with the mediation, Morgan was not
required to, and did not, produce any information to Sundance.
Essentially, at the mediation, Morgan was piggybacking on the
information and arguments developed in the Wood Action.

3
claims, Sundance consented to include the Morgan
lawsuit in an effort to achieve a potential global
resolution. Although the joint mediation resulted in a
settlement of the Wood Action, the Morgan case did not
settle. 8th Cir. App. 249.
On May 3, 2019, just three weeks after the
unsuccessful attempt to settle this lawsuit, and less
than two months after the district court had denied
Sundance’s non-merits request for a stay, Sundance
moved to compel arbitration. 8th Cir. App. 191-210.3 At
the time of Sundance’s Motion to Compel Arbitration
(“Motion to Compel”), no discovery had commenced
from either side. Indeed, the parties had not submitted
a proposed scheduling order, and the district court had
not entered a discovery schedule. The initial
Scheduling Conference was set for May 8, 2019. 8th Cir.
App. 3-4, 248-249. Sundance’s Motion to Compel was

3

On April 24, 2019, the Supreme Court issued a decision in Lamps
Plus v. Varela, providing significant clarification as to the
availability of class arbitration when an arbitration agreement is
ambiguous on the issue. 139 S. Ct. 1407, 203 L. Ed. 2d 636 (2019).
Specifically, it held that class arbitration is not authorized if an
arbitration agreement is ambiguous as to the issue. Lamps Plus,
Inc., 139 S. Ct. at 1419. Sundance’s arbitration agreement suffered
from the same potential ambiguities as were at issue in the Lamps
Plus agreement. A. 259. For instance, both agreements required
the arbitration of all disputes and incorporated the rules of the
American Arbitration Association (“AAA”). This incorporation
introduced ambiguity because the AAA rules provide a procedural
mechanism for the resolution of class arbitration. Lamps Plus, 139
S. Ct. at 1429 (J. Kagan dissenting). As such, prior to Lamps Plus,
Sundance faced a greater risk of being compelled to arbitrate
Morgan’s claims on a collective basis, which would have
undermined the efficiencies inherent in the arbitration process.

4
filed before the initial Scheduling Conference took
place.
Sundance’s Motion to Compel set forth facts
establishing that the parties had entered into a binding
arbitration agreement that covered the wage and hour
dispute set forth in Morgan’s Complaint. 8th Cir. App.
199-204. Morgan’s response to Sundance’s Motion to
Compel focused entirely on the issue of waiver. 8th Cir.
App. 218-230. Notably, Morgan did not develop any
arguments concerning the validity of the arbitration
agreement, whether the agreement was
unconscionable, or whether Morgan’s Complaint fell
within the scope of the agreement. 8th Cir. App. 251.
Rather, Morgan asserted that Sundance had waived its
right to compel arbitration, relying heavily upon the
mere passage of time since the lawsuit filing date (even
though most of that time was spent simply waiting for
the district court to rule on Sundance’s motion to stay
while nothing else happened), and upon the parties’
participation in the wholly voluntary joint private
mediation. 8th Cir. App. 218-230.
In opposing Sundance’s Motion to Compel, Morgan
relied upon the Eighth Circuit’s test for waiver set
forth in Lewallen v. Green Tree Servicing, LLC, 487
F.3d 1085, 1090 (8th Cir. 2007). 8th Cir. App. 221.
Pursuant to Lewallen, a party waives the right to
arbitration if it (1) knew of an existing right to
arbitration; (2) acted inconsistently with that right;
and (3) prejudices the other party by these inconsistent
acts. Lewallen, 487 F.3d at 1090. Not once did Morgan
argue before the district court that the Eighth Circuit’s
test was improper or that she should not be required to

5
show prejudice in order to establish Sundance’s waiver
of its right to enforce the terms of its arbitration
agreement. 8th Cir. App. 218-230. To the contrary,
Morgan affirmatively contended that she had satisfied
the prejudice prong of the test. 8th Cir. App. 223-224.
On June 28, 2019, the district court entered its
Opinion and Order Regarding Sundance’s Motion to
Compel Individual Arbitration and Dismiss (“Opinion”)
in which the district court denied Sundance’s Motion to
Compel. 8th Cir. App. 244-260. The district court found
that the parties did not dispute that a valid arbitration
agreement existed and that this particular dispute fell
within the terms of the agreement. 8th Cir. App. 251.
Nevertheless, the district court held that Sundance had
waived its right to compel arbitration. 8th Cir. App.
260.
B. Proceedings on Appeal
On July 8, 2019, Sundance filed a Notice of Appeal
from the district court’s Opinion. 8th Cir. App. 261-262.
On appeal, Sundance argued that the district court
erred in denying Sundance’s Motion to Compel by
(a) failing to give appropriate deference to the Federal
Arbitration Act’s strong presumption in favor of
arbitration; (b) failing to consider the totality of the
circumstances in assessing waiver; and
(c) impermissibly taking into account Sundance’s
efforts to settle this lawsuit through private mediation,
which were designed to avoid invoking litigation,
rather than engaging in it.
In response to Sundance’s appeal, Morgan once
again argued that the district court properly applied

6
the Lewallen standard for waiver of a right to arbitrate
a dispute. Morgan App. Br., p. 11 (App. ECF No. 19).
At no point during the appeal did Morgan argue that
the Lewallen waiver test was improper or that she
should not be required to show prejudice to establish
Sundance’s waiver of its arbitration rights. Indeed,
Morgan’s appellate brief asserted that she “must also
establish that she was prejudiced,” and she devoted a
section of her brief to contending that she had been
prejudiced. Morgan App. Br., pp. 25-26 (App. ECF No.
19).
On March 30, 2021, the Eighth Circuit Court of
Appeals issued an opinion reversing the district court’s
order denying Sundance’s Motion to Compel. App. 1.
The Eighth Circuit applied the three-part test for
waiver set forth in Lewallen, as well as the principle
that “any doubts concerning waiver of arbitrability
should be resolved in favor of arbitration.” App. 3.
In support of its ruling, the Court addressed
whether waiver had taken place “in light of the totality
of the circumstances.” Along the way, the Court
questioned the district court’s finding that Sundance
had acted inconsistently with its right to arbitration by
substantially invoking the litigation machinery. App.
4. Specifically, the Court stated that the district court
erred by not considering the non-merits nature of
Sundance’s motion to dismiss. Further, the Court
reasoned that “although there was an eight-month
delay, the parties spent very little of this time actively
litigating and no time on the merits of the case.” App.
4-5. And, noted the Court, Sundance’s participation in
private mediation was “an effort to avoid ‘invoking the

7
litigation machinery.’” (internal citation omitted). App.
4-5.
After questioning the district court’s finding as to
whether Sundance had substantially invoked the
litigation machinery – a prerequisite for a finding of
acting inconsistently with one’s right to arbitration –
and citing the errors made by the district court in that
regard, the Court noted that “[t]his all bears on the
third element: prejudice.” App. 5. Relying on the very
same facts that it had already cited in questioning the
district court’s findings as to whether Sundance had
acted inconsistently with its right to compel
arbitration, the Court held that the district court erred
in finding that Morgan was prejudiced by Sundance’s
ostensible delay and supposed litigation activities. The
overlapping facts considered by the Court included the
absence of any litigation on the merits that would
result in duplication of efforts, the failure of any party
to issue discovery, and that much of the delay consisted
of simply waiting for disposition of Sundance’s nonmerits based motion to stay/dismiss. App. 5-6.
The Court’s decision, in evaluating the totality of
the circumstances, did not opine on whether prejudice
should be a separate component of the test for waiver,
and, as noted above, this was because neither party
argued that point in the briefing before the district
court or the Eighth Circuit.

8
REASONS FOR DENYING THE WRIT
Review by this Court of the decision below is neither
necessary nor warranted. First, Petitioner has waived
any argument that prejudice should not be required in
assessing waiver by failing to raise the issue below.
Indeed, Petitioner expressly argued that she was
prejudiced, and there is no indication that the majority
panel decision considered the issue. Second, this case
is not a proper vehicle to address the issue raised by
this Petition—even assuming, arguendo, there were
any validity to it—as it is apparent that the Court
below would have reached the same outcome on the
same constellation of facts under the totality of the
circumstances. Third, the so-called division or conflicts
among the courts below is illusory as it is apparent
that all courts consider prejudice to be at least a
relevant factor in the waiver analysis—even those
courts that do not treat it as a mandatory component.
Fourth, whether prejudice is a mandatory or merely
discretionary factor in the waiver analysis is of no
practical import given the significant overlap between
the facts bearing upon substantial invocation of the
litigation machinery and prejudice to the non-movant.
At bottom, all courts are looking at the totality of
circumstances in assessing waiver. Finally, the issue
raised by this Petition is stale, as any slight difference
in the various approaches to determining waiver has
existed for decades without causing any practical
disruption or problem.

9
I.

Petitioner Has Waived Any Argument That
Prejudice Should Not Be A Required
Element Of The Standard For Waiver Of
Arbitration.

Morgan’s question presented for review is based on
arguments that were neither raised before nor
addressed by the lower courts, and thus should not be
considered. See Pennsylvania Dep’t of Corr. v. Yeskey,
524 U.S. 206, 212–13 (1998) (citations omitted) (“Where
issues are neither raised before nor considered by the
Court of Appeals, this Court will not ordinarily
consider them.”). In Yeskey, this Court refused to
consider whether application of the ADA to state
prisons is a constitutional exercise of Congress’s power
because such argument “was addressed by neither the
District Court nor the Court of Appeals.” Id. at 212.
Here, in her trial court or appellate briefing or
during oral argument on appeal, Morgan never once
argued that a showing of prejudice was not or should
not be a required element to demonstrate waiver of
arbitration rights. To the contrary, in her trial court
and appellate briefing, Morgan explicitly relied upon
the same test that she is now seeking to overrule and
argued that she was prejudiced. 8th Cir. App. 218-230;
Morgan App. Br., pp. 11, 25-26. As a result, Sundance
did not have an opportunity to address the issue below
and weigh in on it, and the Eighth Circuit majority
opinion manifestly did not consider it.
While the dissent below, sua sponte, alluded to
prejudice being “a debatable prerequisite,” the
dissenting judge also made clear that he would have
found against Sundance under both prongs of the test

10
anyway. And there is no indication that the issue
raised by this Petition was considered by the majority
panel decision as there is no reference to the argument
in the majority’s opinion. App. 10-11. As such, the
dissent’s unprompted discussion of prejudice, absent
“the adversarial dispute necessary to apprise the []
court of the arguments,” does not amount to the Eighth
Circuit’s “considered judgment” on an issue that would
warrant review from this Court. See Illinois v. Gates,
462 U.S. 213, 223 (1983).
This case does not represent one of the “unusual
circumstances” that would allow the Court to abandon
its default rule that it “will not entertain arguments
not made below.” OBB Personenverkehr AG v. Sachs,
577 U.S. 27, 38 (2015). Thus, given that this is “a court
of review, not of first view,” it would be inappropriate
for the Court to grant certiorari based on this new
argument. Cutter v. Wilkinson, 544 U.S. 709, 718 n.7
(2005).
II.

The Decision Below And The Decisions Of
Other Circuit Courts Do Not Present A
Conflict That This Court Must Resolve.
A. This Case Is Not A Proper Vehicle To
Address Whether Prejudice Should Be A
Mandatory Component Of The Test For
Waiver Of Arbitration.

Even assuming, arguendo, that Morgan had
identified some material conflict among the circuits as
to prejudice’s role in the waiver analysis as applied to
arbitration, which she has not, this case is not the
proper vehicle to resolve such purported conflict. Here,

11
despite Morgan’s strained assertions to the contrary
(Pet., pp. 6, 7, 30, 31), it is apparent that the Court
below would have reached the same outcome even if it
had not chosen to rely upon the absence of prejudice to
Morgan. On the issue of substantial invocation of the
judicial machinery, the Court did much more than find
“the question close,” as asserted by Morgan in the
Petition. Pet., p. 7. Rather, the Court expressly
questioned the district court’s finding that Sundance’s
conduct amounted to substantial invocation of the
litigation machinery “in light of the totality of the
circumstances.” App. 4. In addition to questioning the
district court’s decision on that point, the Court also
found that the district court erred by not considering
the non-merits nature of Sundance’s motion, and with
respect to such motion, the Court reasoned that
“although there was an eight-month delay, the parties
spent very little of this time actively litigating and no
time on the merits of the case.” App. 4-5. All of this
discussion by the Court was in the context of whether
Sundance had substantially invoked the litigation
machinery.
As discussed in more detail in Section II(b) below,
and as is apparent from the Court’s decision, whether
a party has substantially invoked the litigation
machinery and prejudice to the party opposing
arbitration are substantially intertwined and often
supported, as here, by the same facts. Hence, there is
absolutely nothing to suggest that had prejudice not
been treated as a separate component of the waiver
test, the Court below would not have reversed the
district court’s decision on the totality of the
circumstances based upon the very same facts. This is

12
especially true considering that “any doubts concerning
scope of arbitral issues should be resolved in favor of
arbitration.” Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp., 460 U.S. 1, 24-25 (1983).
In sum, the question Morgan poses in her Petition
is irrelevant and academic because, regardless of
whether prejudice is required as part of the test for
waiver, it is apparent that the Court would have
reversed the district court’s decision anyway.
B. The Purported Conflicts Among The
Circuit Courts Are Illusory And Do Not
Require Resolution By This Court.
Morgan repeatedly refers to “division” or “confusion”
among the circuit courts and state courts over the role
of prejudice in determining whether a party has waived
its right to arbitrate a dispute. Pet., pp. 9, 11-12, 31.
However, close examination of the authorities cited by
Morgan reveals that any conflicts are illusory.
First, Morgan does not and cannot dispute that
every Circuit Court considers prejudice to be a relevant
factor in the waiver analysis—even if some courts do
not treat it as a mandatory component.4This includes
4

See FPE Found. v. Cohen, 801 F.3d 25, 31 (1st Cir. 2015) (citation
omitted); Technology in Partnership, Inc. v. Rudin, 538 Fed.App’x.
38, 39 (2d Cir. 2013); In re Pharmacy Ben. Managers Antitrust
Litig., 700 F.3d 109, 117 (3d Cir. 2012); Wheeling Hosp., Inc. v.
Health Plan of the Upper Ohio Valley, Inc., 683 F.3d 577, 587 (4th
Cir. 2012); Al Rushaid v. Nat’l Oilwell Varco, Inc., 757 F.3d 416,
421 (5th Cir. 2014); Art Shy v. Navistar Int’l Corp., 781 F.3d 820,
827–28 (6th Cir. 2015); Cooper v. Asset Acceptance, LLC, 532
Fed.Appx. 639, 641 (7th Cir. 2013); Kelly v. Golden, 352 F.3d 344,
349 (8th Cir. 2003); Samson v. NAMA Holdings, LLC, 637 F.3d

13
the Seventh, Tenth and D.C. Circuits that have
adopted the so-called minority view with respect to
prejudice. See St. Mary’s Med. Ctr. of Evansville, Inc.
v. Disco Aluminum Prod. Co., 969 F.2d 585, 590 (7th
Cir. 1992) (“prejudice is but one relevant circumstance
to consider in determining whether a party has waived
its right to arbitrate.”); Cabinetree of Wisconsin, Inc. v.
Kraftmaid Cabinetry, Inc., 50 F.3d 388, 391 (7th Cir.
1995) (in certain cases “prejudice to the other party, the
party resisting arbitration, should weigh heavily in the
decision whether to send the case to arbitration.”);
Nat’l Found. for Cancer Rsch. v. A.G. Edwards & Sons,
Inc., 821 F.2d 772, 777 (D.C. Cir. 1987) (“Of course, a
court may consider prejudice to the objecting party as
a relevant factor among the circumstances that the
court examines in deciding whether the moving party
has taken action inconsistent with the agreement to
arbitrate.”); Peterson v. Shearson/American Exp., Inc.,
849 F.2d 464, 467-68 (10th Cir. 1988) (“In determining
whether a party has waived its right to arbitration, this
court examines several factors” including “whether the
delay ‘affected, misled, or prejudiced’ the opposing
party.”). There is simply no material disagreement
among the Circuit Courts regarding the relevance of
prejudice as a factor in the waiver analysis.5
915, 934 (9th Cir. 2010); In re Cox Enterprises, Inc., 790 F.3d 1112,
1116 (10th Cir. 2015); Grigsby & Assoc’s, Inc. v. M Securities Inv.,
635 Fed.Appx. 728, 731 (11th Cir. 2015); S & H Contractors, Inc.
v. A.J. Taft Coal Co., 906 F.2d 1507, 1514 (11th Cir. 1990); Khan
v. Parsons Global Servs., Ltd., 521 F.3d 421, 428 (D.C. Cir. 2008).
5

Additionally, at least one of the four state courts of last resort
that do not require prejudice to find waiver nonetheless finds it
relevant to the analysis. See Hudson v. Citibank (S.D.) NA, 387
P.3d 42, 49 (Alaska 2016) (“We conclude that ‘a court may consider

14
Second, whether prejudice is a mandatory or
discretionary factor to be considered in the waiver
analysis is an academic distinction with no practical
significance because of the substantial overlap between
the facts bearing upon invocation of the litigation
machinery and prejudice. For instance, in this case, the
Court below analyzed these two concepts in tandem
and relied upon the same facts as to each, as have
many other courts that have adopted the so-called
majority and minority views. For example, the Third
Circuit considers the following factors as being
generally indicative as to whether a party opposing
arbitration suffers prejudice:
(1) timeliness or lack thereof of the motion to
arbitrate; (2) extent to which the party seeking
arbitration has contested the merits of the
opposing party’s claims; (3) whether the party
seeking arbitration informed its adversary of its
intent to pursue arbitration prior to seeking to
enjoin the court proceedings; (4) the extent to
which a party seeking arbitration engaged in
non-merits motion practice; (5) the party’s
acquiescence to the court’s pretrial orders; and
(6) the extent to which the parties have engaged
in discovery.
Gray Holdco, Inc. v. Cassady, 654 F.3d 444,451 (3d Cir.
2011). Each of these factors is relevant to whether a
party substantially invoked the litigation machinery as
prejudice to the [party opposing arbitration] as a relevant factor
among the circumstances that the court examines in deciding
whether the moving party has taken action inconsistent with the
agreement to arbitrate.’”)

15
they all involve litigation activities. Indeed, litigation
activities and prejudice are closely intertwined. See
also, e.g., Nat’l Found. for Cancer Rsch., 821 F.2d at
777 (“Substantial invocation of the litigation process,
however, may cause prejudice and detriment to the
opposing party.”); E.C. Ernst, Inc. v. Manhattan Const.
Co., 559 F.2d 268, 269 (5th Cir. 1977) (“Substantially
invoking the litigation machinery qualifies as the kind
of prejudice ... that is the essence of waiver.”); Price v.
Drexel Burnham Lambert, Inc., 791 F.2d 1156, 1162
(5th Cir. 1986) (court observed that litigating a motion
for summary judgment, in view of the time and expense
associated with such litigation activity, “could not have
caused anything but substantial prejudice to the
[plaintiffs]”).
Thus, any differences in the approaches adopted by
the Circuit Courts in treating prejudice as a standalone
requirement do not amount to substantial divisions or
create a material Circuit split warranting this Court’s
review. At bottom, all of the Circuits are looking at the
totality of the circumstances, as they should, in
assessing waiver, and all are considering the existence
of prejudice, whether as a mandatory or nonmandatory factor, as part of the assessment, based
upon highly overlapping facts.
III.

The Decision Below Does Not Raise Any
Important Federal Question Requiring
Resolution By This Court.

Morgan’s repeated and hyperbolic contention that
the differences in how courts treat prejudice “has
spawned chaos” is also unsupported and misguided.
Pet., p. 11, 32. The practical implications of any

16
differences between courts’ approaches to the waiver
analysis are minimal to non-existent given that all
courts everywhere are looking at the totality of the
circumstances and examining the same procedural
facts in assessing waiver. The fact of the matter is that
the slightly different formulations of the test for waiver
have existed for decades and proven workable, without
generating any anomalous results.
Indeed, numerous Circuit Courts have observed
that “[a]n inquiry into whether an arbitration right has
been waived is factually specific and not susceptible to
bright line rules.” Cotton v. Slone, 4 F.3d 176, 179 (2d
Cir. 1993); St. Mary’s Med. Ctr. of Evansville, Inc., 969
F.2d at 590 (“That principle is implicit in our repeated
emphasis that waiver depends on all the circumstances
in a particular case rather than on any rigid rules…”);
Hill v. Ricoh Americas Corp., 603 F.3d 766, 774-776
(10th Cir. 2010) (The application of waiver factors “was
not intended to suggest a mechanical process in which
each factor is assessed and the side with the greater
number of favorable factors prevails.”); Nino v. Jewelry
Exch., Inc., 609 F.3d 191, 209 (3d Cir. 2010) (“the
waiver determination must be based on the
circumstances and context of the particular case.”).
Given this reality as to how federal and state courts
look at waiver, the distinction between whether
prejudice is considered a mandatory, separate
component of the analysis, or just something to be
considered in the mix, is simply not material to the
outcomes of individual cases or to the development of
the law in this area.

17
As further proof of this point, Circuit Courts on
either side of the issue have been able to rely on
decisions from Circuit Courts on the other side in
evaluating prejudice and waiver. See, e.g., St. Mary’s
Med. Ctr. of Evansville, Inc., 969 F.2d at 591 (relying
on Fourth Circuit decision in Burton v. Bush, 614 F.2d
389, 390 (4th Cir.1980) in concluding that plaintiff was
prejudiced by defendant’s litigation activity); Hill, 603
F.3d at 773 (relying on First, Fourth, Second, Fifth,
and Eleventh Circuits); Khan v. Parsons Glob. Servs.,
Ltd., 521 F.3d 421, 426 (D.C. Cir. 2008) (citing Fifth
Circuit for proposition that litigation activities – e.g.,
motions for summary judgment – are often sufficient to
constitute prejudice in circuits requiring prejudice).
The fact that different Circuits on either side of the
supposed “divide” on this issue rely upon decisions from
both sides in support of their assessment of waiver
demonstrates that the vaunted distinction touted by
Petitioner is of no practical significance.
Lastly, this issue is stale as any slight difference in
approaches to waiver among the Circuits has existed
for decades and has proven workable. In an effort to
suggest this is an emergent issue requiring this Court’s
consideration, the Petition states that the Eighth
Circuit, through the decision below, just “joined eight
other federal courts of appeals and most state supreme
courts” in requiring prejudice. Pet., pp. i, 3, 9. This is
clearly not the case. The test for waiver relied upon by
the Court below was originally set forth by the Eighth
Circuit as early as 1991 in Stifel, Nicolaus & Co., Inc.
v. Freeman, 924 F.2d 157 (8th Cir. 1991) (“To prove
Stifel waived its right to arbitration, Freeman and
Weyhmueller must show: (1) Stifel knew of an existing

18
right to arbitration; (2) Stifel acted inconsistently with
that right; and (3) Stifel’s inconsistent acts prejudiced
them.”). The Seventh Circuit adopted its current
approach only a year later in 1992. St. Mary’s Med.
Ctr. of Evansville, Inc., 969 F.2d at 585. The other
Circuit Courts that adopted the so-called minority view
– the Tenth and D.C. Circuits – staked out their
positions even earlier. Peterson, 849 F.2d at 467-68;
Nat’l Found. for Cancer Rsch., 821 F.2d at 774. The
remaining Circuit Courts’ positions have also been set
for at least twenty years.6
6

Sevinor v. Merrill Lynch, Pierce, Fenner & Smith, 807 F.2d 16, 19
(1st Cir. 1986) (“In order for plaintiffs to prevail on their claim of
waiver, they must show prejudice.”); In re Crysen/Montenay
Energy Co., 226 F.3d 160, 162 (2d Cir. 2000) (quoting PPG Indus.,
Inc. v. Webster Auto Parts, Inc., 128 F.3d 103, 107 (2d Cir. 1997) (a
party can waive its right to arbitration “when it engages in
protracted litigation that prejudices the opposing party”); Gavlik
Constr. Co. v. H.F. Campbell Co., 526 F.2d 777, 784 (3d Cir. 1975);
Maxum Founds., Inc. v. Salus Corp., 779 F.2d 974, 981 (4th Cir.
1985) (a party will default its right to arbitration if it “so
substantially utiliz[es] the litigation machinery that to
subsequently permit arbitration would prejudice the party
opposing the stay.”); Miller Brewing Co. v. Fort Worth Distrib. Co.,
781 F.2d 494, 497 (5th Cir. 1986) (“Waiver will be found when the
party seeking arbitration substantially invokes the judicial process
to the detriment or prejudice of the other party.”); Gen. Star Nat’l
Ins. Co. v. Administratia Asigurarilor de Stat, 289 F.3d 434, 438
(6th Cir. 2002) (“a party may waive the right by delaying its
assertion to such an extent that the opposing party incurs actual
prejudice.”); Fisher v. A.G. Becker Paribas Inc., 791 F.2d 691, 694
(9th Cir. 1986) (A party seeking to prove waiver of the right to
arbitrate must show: “(1) knowledge of an existing right to compel
arbitration; (2) acts inconsistent with that existing right; and
(3) prejudice to the party opposing arbitration from such
inconsistent acts.”); S & H Contractors, Inc. v. A.J. Taft Coal Co.,
906 F.2d 1507, 1514 (11th Cir. 1990) (“A party has waived its right

19
Similarly, the Petition’s reliance on this Court
granting certiorari on this issue over ten years ago in
Citibank, N.A. v. Stok & Assocs., P.A. is not evidence of
the certworthiness of this issue. Pet., p. 31. Instead, it
demonstrates the staleness of this issue. Indeed, much
more recently, this Court denied certiorari on the very
same issue. See Morgenthau Venture Partners, LLC v.
Kimmel, 254 So. 3d 958 (Fla. Dist. Ct. App. 2018), cert.
denied 139 S. Ct. 2693 (2019). Nothing that has
occurred since this Court denied certiorari in
Morgenthau, including the decision below, warrants reexamination of this Court’s determination that
certiorari is not warranted over this non-issue.

to arbitrate if, under the totality of the circumstances, the party
has acted inconsistently with the arbitration right and, in so
acting, has in some way prejudiced the other party.” )

20
CONCLUSION
For the foregoing reasons, Sundance respectfully
requests that this Court deny Morgan’s Petition for a
Writ of Certiorari to the Eighth Circuit Court of
Appeals.
Respectfully submitted,
JOEL W. RICE
SCOTT C. FANNING
FISHER & PHILLIPS LLP
10 South Wacker Drive
Suite 3450
Chicago, IL 60606

REYBURN W. LOMINACK, III
Counsel of Record
FISHER & PHILLIPS LLP
1320 Main Street
Suite 750
Columbia, SC 29201
(803) 740.7658
rlominack@fisherphillips.com

Counsel for Respondent
October 1, 2021

